SCHONBRUN SEPLOW

HARRIS & HOFFMAN LLP
200 Pier Ave. Suite 226
| Hermosa Beach, CA 90054 Helen I. Zeldes

Benjamin Schonbrun (310) 717-7373 (310) 399-7040 (fax) Ben Travis
Michael D. Seplow 1@aol.com Gary Bostwick

a hoffpaul@:
Wilmer J. Harris Erwin Chemerinsky*
Paul L. Hoffman *Illinois and
Catherine E. Sweetser Dist. Columbia
Aidan C. McGlaze South Pasadena Office
John C. Washington 715 Fremont hoa

Ae uite
Kristina As Harooma South Pasadena, CA 91030
Sarah L. Dawley (626) 441-4129

(626) 283-5770 (fax)

November 14, 2019 West LA Office

By Electronic Filing 11543 W, Olympic Blvd.
Hon. Scott S. Harris, Clerk Los Angeles. CA 90064

Supreme Court of the United States
One First Street, NE
Washington, DC 20543

Re: Cargill, Inc., Petitioner v. John Doe I, et al., No. 19-453, Vide 19-416
Dear Mr. Harris:

Pursuant to Rule 30.4, Respondents John Doe et al. request an eight day extension
of time to December 12, 2019 to file their Brief in Opposition. The principal basis for
this request is that the undersigned counsel of record’s family members were killed
recently, and counsel will be overseas from November 14th to November 29th attending
their funerals and arranging for the future care of the children of one of these family
members.

Before submitting this request, I contacted counsel for petitioner, who informed
me that they consent to the extension. An eight day extension will be adequate to
complete the Brief in Opposition. The same request has been made regarding the
consolidated petition by Nestlé U.S.A., Inc., and counsel for Petitioner Nestlé has also

consented to this extension.
Respectfully submitted,
Paul Hoffman

Counsel for Respondents

Cc by USPS First Class and Electronic Mail:

Andrew John Pincus, Counsel for Petitioner Cargill, Inc.
Mayer Brown LLP

1999 K Street, NW

Washington, DC 20006

apincus@mayerbrown.com
